HHS/OIG, Audit -"Review of Place of Service Coding for Physician ServicesTrailBlazer Health Enterprises, LLC for the Period January 1, 2001 through December 31, 2002,"(A-06-04-00046)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Place of Service Coding for Physician Services  TrailBlazer
Health Enterprises, LLC for the Period January 1, 2001 through December 31, 2002," (A-06-04-00046)
January 21, 2005
Complete
Text of Report is available in PDF format (339 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of Medicare Part B overpayments made to physicians
by TrailBlazer Health Enterprises, LLC (TrailBlazer) for billings with an incorrect place of service code.  Seventy-six
of 100 sampled physician services, were performed in a facility but were billed by the physicians using the office or
other non-facility place of service codes.  Based on a statistical projection, we estimate that TrailBlazer overpaid
physicians $ 1,051,477 for incorrectly coded services provided during the 2-year period ended December 31, 2002.  We
recommended that TrailBlazer: (1) recover identified overpayments totaling $2,983; (2) work with the physician population
to reassess their billings and refund estimated overpayments totaling $1,051,477; (3) educate and encourage the physicians
to implement internal controls systems; (4) instruct physicians to notify their billing representatives about the importance
of correctly reporting place of service codes; (5) coordinate with the Indian Health Service billing program representatives
to ensure that safeguards in the new nationwide billing system under development guarantees facilities enter the correct
place of service codes and that in the interim, appropriate action is taken to ensure that place of service coding is performed
at the local level; and (6) educate TrailBlazer customer service personnel regarding their instructions to physicians representatives
related to correct place of service codes.  TrailBlazer officials generally agreed with the OIG findings.